Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




 OKLAHOMA COMPLIED WITH THE
FEDERAL MEDICAID REQUIREMENTS
FOR BILLING MANUFACTURERS FOR
    REBATES FOR PHYSICIAN-
     ADMINISTERED DRUGS


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Patricia Wheeler
                                               Regional Inspector General

                                                     September 2013
                                                      A-06-12-00059
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                                             O FFICE OF A UDIT S ERVICES , R EGION VI
                                                                1100 C OMMERCE S TREET, R OOM 632
                                                                                  D ALLAS , TX 75242

September 19, 2013



Report Number: A-06-12-00059

Mr. Kelly Shropshire
Director – Program Integrity & Accountability
Oklahoma Health Care Authority
2401 NW 23rd, Suite 1A
Oklahoma City, OK 73107

Dear Mr. Shropshire:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Oklahoma Complied With the Federal Medicaid
Requirements for Billing Manufacturers for Rebates for Physician-Administered Drugs. We will
forward a copy of this report to the HHS action official noted below.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
https://oig.hhs.gov.

If you have any questions or comments about this report, please direct them to the HHS action
official. Please refer to report number A-06-12-00059 in all correspondence.

                                             Sincerely,



                                             /Patricia Wheeler/
                                             Regional Inspector General
                                               for Audit Services

Enclosure
Page 2 – Mr. Kelly Shropshire


HHS Action Official:


Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
ROchiORA@cms.hhs.gov
                                                INTRODUCTION

    Oklahoma complied with Federal Medicaid requirements for billing manufacturers for
    rebates for physician-administered drugs.


WHY WE DID THIS REVIEW

For a covered outpatient drug to be eligible for Federal reimbursement under the Medicaid
program’s drug rebate requirements, manufacturers must pay rebates to the States. States bill the
manufacturers for the rebates to reduce the cost of the drugs to the program. However, a recent
Office of Inspector General review found that States did not always bill and collect all rebates
due for drugs administered by physicians in an office or hospital outpatient facility. (Appendix
A lists previous reviews.)

OBJECTIVE

Our objective was to determine whether the Oklahoma Health Care Authority (State agency)
complied with Federal Medicaid requirements for billing manufacturers for rebates for
physician-administered drugs.

BACKGROUND

Medicaid Drug Rebate Program

The Medicaid drug rebate program became effective in 1991 (the Social Security Act (the Act),
§ 1927). For a covered outpatient drug to be eligible for Federal reimbursement under the
program, the drug’s manufacturer must enter into a rebate agreement with the Centers for
Medicare & Medicaid Services (CMS) and pay quarterly rebates to the States. CMS, the States,
and drug manufacturers each have specific functions under the program.

Manufacturers are required to submit a list to CMS of all covered outpatient drugs and to report
each drug’s average manufacturer price and, where applicable, best price. 1 On the basis of this
information, CMS calculates a unit rebate amount for each drug and provides the information to
the States each quarter.

Section 1903(i)(10) of the Act prohibits Federal reimbursement for States that do not capture the
information necessary for billing manufacturers for rebates as described in section 1927 of the
Act. 2 To bill for rebates, States must capture drug utilization data that identifies, by National
Drug Code (NDC), the number of units of each drug for which the States reimbursed Medicaid
providers, and must report the information to the manufacturers (the Act, § 1927(b)(2)(A)).

1
    Section 1927(b) of the Social Security Act and section II of the Medicaid rebate agreement.
2
  All single-source and the top 20 multiple-source physician-administered drugs are required to be invoiced for
rebates for the State to receive Federal reimbursement.

Oklahoma Medicaid Payments Associated With Physician-Administered Drugs (A-06-12-00059)                           1
The number of units is multiplied by the unit rebate amount to determine the actual rebate
amount due from each manufacturer.

States report drug rebate accounts receivable data on the Medicaid Drug Rebate Schedule. This
is part of the Form CMS-64, Quarterly Medicaid Statement of Expenditures for the Medical
Assistance Program (Form CMS-64), which contains a summary of actual Medicaid
expenditures for each quarter and is used by CMS to reimburse States for the Federal share of
Medicaid expenditures.

Physician-Administered Drugs

Drugs administered by a physician in an office setting are typically billed to the Medicaid
program on a claim form using Healthcare Common Procedure Coding System (HCPCS) codes.
Drugs administered by a physician in an outpatient hospital setting are typically billed on a claim
form using a revenue code to identify the type of service.

Before the Deficit Reduction Act of 2005, many States did not collect rebates on physician-
administered drugs if the drug claims did not contain NDCs. The Deficit Reduction Act
amended section 1927 of the Act to require States to capture the necessary information,
including NDCs, to bill manufacturers for rebates on such drugs. However, section 1927(a)(7)
of the Act allowed CMS to delay some collection and submission requirements for States that
demonstrated a need for additional time for implementation.

The State Agency’s Medicaid Drug Rebate Program

The State agency is responsible for billing and collecting Medicaid drug rebates for physician-
administered drugs. Providers may submit claim forms electronically or in paper form. The
State agency contracts with HP Enterprise Services, LLC, to process claims and prepare drug
rebate invoices. The State agency works with the contractor to verify utilization details prior to
invoice preparation. Invoices are sent to contracted pharmaceutical manufacturers quarterly for
rebates due on single-source drugs and all multiple-source physician-administered drugs. 3 The
manufacturers pay the rebates directly to the State agency. The State agency maintains the
accounts receivable information and works with manufacturers to resolve any unpaid rebates. 4




3
 States are required to bill for rebates only on the top-20 multiple-source drugs. However, Oklahoma billed for all
multiple-source drugs.
4
 The invoices and accounts receivable identify drugs by NDC and do not distinguish between pharmacy and
physician-administered drugs.


Oklahoma Medicaid Payments Associated With Physician-Administered Drugs (A-06-12-00059)                               2
HOW WE CONDUCTED THIS REVIEW

Our audit covered physician-administered drug claims paid during calendar years 2009 through
2011. We tested the $7,945,132 in claims that the State agency made for physician-administered
drugs and that were paid between July 1 and September 30, 2011. 5

We reviewed the CMS-64.9R for the 12 quarters of our audit period. 6 After selecting the fourth
quarter of 2011 to test, 7 we judgmentally selected from the summary drug utilization information
13 NDCs associated with 6 manufacturers. We traced these items through the rebate invoicing
and collection process. We also obtained all physician-administered drug claims paid during the
quarter, removed claims exempt from being rebated, and compared the remaining paid claims to
claims that were invoiced for Medicaid rebates for the quarter. Because we did not find any
material errors, we did not test transactions from the other quarters in our audit period.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix B contains the details of our audit scope and methodology.

                                           RESULTS OF AUDIT

The State agency complied with Federal Medicaid requirements for billing manufacturers for
rebates for physician-administered drugs. The State agency properly billed rebates for the
$7,945,132 in claims for the sampled quarter. Therefore, no recommendations are provided.




5
 We limited our scope to Medicaid fee-for-service drug claims. We did not include the drug utilization of managed
care organizations in this review.
6
 The CMS-64.9R, Medicaid Drug Rebate Schedule, is a summary of drug rebate transactions for the quarter; it is
part of the Form CMS-64 that the State submits each quarter to CMS.
7
  The information presented in the fourth-quarter CMS-64 Report is based on transactions from the third quarter
(July1 through September 30, 2011).

Oklahoma Medicaid Payments Associated With Physician-Administered Drugs (A-06-12-00059)                           3
       APPENDIX A: RELATED OFFICE OF INSPECTOR GENERAL REPORTS


                   Report Title                            Report Number                  Date Issued

 Medicaid Rebates for Physician-Administered               OEI-03-02-00660                   04/04
                    Drugs
   States’ Collection of Medicaid Rebates for
                                                           OEI-03-09-00410                   06/11
         Physician-Administered Drugs

  Nationwide Rollup Report for Medicaid Drug
                                                            A-06-10-00011                    08/11
              Rebate Collections




Oklahoma Medicaid Payments Associated With Physician-Administered Drugs (A-06-12-00059)                 4
                   APPENDIX B: AUDIT SCOPE AND METHODOLOGY

SCOPE

Our audit covered physician-administered drug claims paid during calendar years 2009 through
2011. We tested the $7,945,132 in claims that the State agency made for physician-administered
drugs and that were paid between July 1 and September 30, 2011.

Our audit objective did not require an understanding or assessment of the complete internal
structure of the State agency. We limited our internal control review to obtaining an
understanding of the State agency’s processes and controls over billing for Medicaid rebates for
physician-administered drugs.

We performed our fieldwork at the State agency in Oklahoma City, Oklahoma, in November
2012.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed applicable Federal laws, regulations, and guidance pertaining to the Medicaid
        drug rebate program and physician-administered drugs;

    •   reviewed State agency regulations and guidance to providers, including billing
        instructions for physician-administered drugs;

    •   reviewed State agency policies and procedures for Medicaid drug rebates;

    •   interviewed State agency personnel to gain an understanding of the administration of and
        controls over the Medicaid drug rebate process for physician-administered drugs;

    •   obtained and reviewed the CMS-64.9R for the 12 quarters of our review;

    •   selected the fourth quarter of 2011 to test; and

    •   tested the billing and collection of rebates by:

            o obtaining from the State agency the claims for physician-administered drugs listed
              on the fourth quarter CMS-64 for calendar year 2011 totaling $7,945,132;

            o judgmentally selecting, from the quarter, drug utilization claim details for 13
              NDCs associated with 6 manufacturers;




Oklahoma Medicaid Payments Associated With Physician-Administered Drugs (A-06-12-00059)            5
            o reviewing (1) copies of rebate invoices submitted to the 6 manufacturers and the
              resultant remittances to verify the billing of rebates by NDC and (2) receipt of
              rebates for the sampled NDCs;

            o obtaining information regarding physician-administered claims that were exempt
              from Medicaid rebates (e.g., 340B claims and vaccine claims) and requesting
              exclusion reason codes;

            o requesting rebated claims detail for claims from the fourth-quarter Form CMS-64;
              and

            o removing claims not eligible for rebate and comparing the remaining paid claims
              to rebate invoicing data.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Oklahoma Medicaid Payments Associated With Physician-Administered Drugs (A-06-12-00059)          6
